CERTIFICATE OF COMPLIANCE
20-1137
CALIFORNIA PARENTS FOR THE EQUALIZATION OF EDUCATIONAL MATERIALS, ET AL.,
Petitioners,
v.
TOM TORLAKSON, IN HIS OFFICIAL CAPACITY AS STATE SUPERINTENDENT OF PUBLIC
INSTRUCTION AND DIRECTION OF EDUCATION FOR THE CALIFORNIA DEPARTMENT OF
EDUCATION, ET AL.,
Respondents

As required by Supreme Court Rule 33.1(h), I hereby certify that the
MOTION FOR LEAVE TO FILE AND BRIEF OF SHREE SHAKTI MANDIR OF
ATLANTA AND OTHER HINDU TEMPLES, HINDU ORGANIZATIONS, AND
TEACHERS AS AMICUS CURIAE IN SUPPORT OF PETITIONER in the above
entitled case complies with the typeface requirement of Supreme Court Rule
33.1(b), being prepared in Century Schoolbook 12 point for the text and 10 point for
the footnotes, and the brief contains 5,613 words including the Appendix, and
excluding all other parts that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on March 23, 2021.
/s/Alan Mygatt-Tauber
ALAN MYGATT-TAUBER
LAW OFFICE OF ALAN MYGATT-TAUBER
10089 Ashley Circle, NW
Silverdale, WA 98383
(202) 236-9734

